IN THE SUPREME COURT OF THE UNITED STATES

DANIEL LENE LOPEZ
Petitioner,

Vv.

UNITED STATES OF AMERICA
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Eighth Circuit

I, Joseph G. Bertgoli, do declare that the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF
CERTIORARI have 4,101 words.

/s/ Joseph G. Bertogli

JOSEPH G. BERTOGLI

ICIS No. AT0000797

300 Walnut, Suite 270

Des Moines, Iowa 50309
Telephone: 515/244-7820
Facsimile: 515/244-9125
ATTORNEY FOR PETITIONER
